     Department of Homeland Security

     ��������������������������



  Puerto Rico’s Management of Homeland Security 

             Grant Program Awards for 

          Fiscal Years 2009 Through 2011





OIG-14-04                            November 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 I www.oig.dhs.gov

                                           NOV 4 2013

MEMORANDUM FOR :             Brian E. Kamoie
                             Assistant Administrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L.  Richards~i£/d
                             Assistant Inspector General for Audits

SUBJECT:                     Puerto Rico's Management of Homeland Security Grant
                             Program Awards for Fiscal Years 2009 Through 2011

Attached for your action is our final report, Puerto Rico's Management of Homeland
Security Grant Program Awards for Fiscal Years 2009 Through 2011. We incorporated the
formal comments from the Office of Policy, Program Analysis and International Affairs and
the Commonwealth of Puerto Rico Office of Homeland Security in the final report.

The report contains 15 recommendations aimed at improving the overall effectiveness of
Puerto Rico's management of State Homeland Security Program and Urban Areas Security
Initiative grants. Your office concurred with 15 ofthe 15 recommendations. Based on
information provided in your response to the draft report, we consider recommendations
1 through 6 and 9 through 15 resolved, and recommendations 7 and 8 closed. Once your
office has fully implemented the recommendations, please submit a formal closeout letter
to us within 30 days so that we may close the recommendation(s) . The memorandum
should be accompanied by evidence of completion of agreed-upon corrective actions and of
the disposition of any monetary amounts.

Please email a signed PDF copy of all responses and closeout requests to
OIGAuditsFollowup@oig.dhs.gov.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
September 19, 2013

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W., Building 410
Washington, DC 20528

Dear Ms. Richards,

Williams, Adley & Company-DC, LLP performed an audit of the Commonwealth of Puerto
Rico’s management of the State Homeland Security Program and Urban Areas Security
Initiative grants for Fiscal Years 2009 through 2011. The audit was performed in accordance
with Contract Number TPDFIGBPA100008; Task Order 0003, dated September 24, 2012.
This report presents the results of the audit, and includes recommendations to help
improve the Commonwealth of Puerto Rico’s management of the audited State Homeland
Security Program and Urban Areas Security Initiative grants.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2011 revision. The audit was a performance audit, as defined by Chapter 2 of the Standards,
and included a review and report on program activities with a compliance element.
Although the audit report comments on costs claimed by the Commonwealth of Puerto
Rico, we did not perform a financial audit, the purpose of which would be to render an
opinion on the Commonwealth of Puerto Rico’s financial statements, or the funds claimed
in the Financial Status Reports submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any questions
or need further assistance, please contact us at 202-371-1397.

Sincerely,

Williams, Adley & Company-DC, LLP




Jocelyn Hill
Partner

                                    WILLIAMS, ADLEY & COMPANY-DC, LLP
                          Certified Public Accountants / Management Consultants
             th
     1030 15 Street, NW, Suite 350 West • 	 Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                            www.williamsadley.com
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 2


              The Commonwealth of Puerto Rico’s Grant Management Practices .................... 2 


              Fusion Center Operations ...................................................................................... 3 

              Recommendations ................................................................................................. 5 

              Management Comments and Auditor Analysis ..................................................... 5 


              Review and Approval of Grant Expenditures ......................................................... 7 

              Recommendations ................................................................................................. 9 

              Management Comments and Auditor Analysis ................................................... 10 


              Homeland Security Strategies .............................................................................. 10 

              Recommendations ............................................................................................... 13 

              Management Comments and Auditor Analysis ................................................... 13 


              Subgrantee Monitoring ........................................................................................ 14 

              Recommendations ............................................................................................... 16 

              Management Comments and Auditor Analysis ................................................... 16 


              Single Audit Services ............................................................................................ 17 

              Recommendations ............................................................................................... 18 

              Management Comments and Auditor Analysis ................................................... 18 


              Financial Reporting Accuracy ............................................................................... 19 

              Recommendation ................................................................................................. 20 

              Management Comments and Auditor Analysis ................................................... 20 


              Obligation of Grant Funds to Subgrantees .......................................................... 20 

              Recommendation ................................................................................................. 21 

              Management Comments and Auditor Analysis ................................................... 21 





www.oig.dhs.gov                                                                                                                 OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendixes
           Appendix A:   Objectives, Scope, and Methodology .......................................... 23
           Appendix B:   Management Comments to the Draft Report ............................. 26
           Appendix C:   Description of the Homeland Security Grant Program ................ 42
           Appendix D:   Puerto Rico Homeland Security Office Organizational Chart ....... 43
           Appendix E:   Potential Monetary Benefits......................................................... 44
           Appendix F:   Threat and Hazard Identification and Risk Assessment ............... 45
           Appendix G:   Report Distribution ...................................................................... 46


   Abbreviations
           BSIR          Biannual Strategy Implementation Report
           CBRNE         Chemical, Biological, Radiological, Nuclear, and Explosives
           CFR           Code of Federal Regulations
           DHS           Department of Homeland Security
           FEMA          Federal Emergency Management Agency
           FY            fiscal year
           HSGP          Homeland Security Grant Program
           OIG           Office of Inspector General
           OPSS          Office of Public Safety and Security
           SHSP          State Homeland Security Program
           THIRA         Threat and Hazard Identification and Risk Assessment
           UASI          Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                OIG-14-04

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual states’ and territories’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirements for the Commonwealth of Puerto Rico and its State Homeland
   Security Program and Urban Areas Security Initiative grants.

   The objectives of the audit were to determine whether the Commonwealth of Puerto
   Rico distributed and spent State Homeland Security Program and Urban Areas Security
   Initiative grant funds strategically, effectively, and in compliance with laws, regulations,
   and guidance. We also addressed the extent to which grant funds enhanced the
   Commonwealth of Puerto Rico’s ability to prevent and respond to hazards of all types
   on a local as well as territory-wide level. The audit included a review of approximately
   $18 million in State Homeland Security Program and $6 million in Urban Areas Security
   Initiative grants awarded to the Commonwealth of Puerto Rico during fiscal years 2009
   through 2011.

   In most instances, the State Administrative Agency did an effective and efficient job of
   administering the program requirements, distributing grant funds, and ensuring that all
   available funds were used. However, we identified seven areas for improvement in the
   Commonwealth of Puerto Rico: Fusion Center contingency planning, grant expenditures,
   strategic planning, subgrantee monitoring, Single Audits, financial reporting, and
   obligation of funds. Additionally we identified more than $2 million in questioned costs,
   primarily resulting from unsupported costs, unauthorized equipment purchases, and
   improper use of funds by subgrantees in fiscal years 2009 through 2011.

   We made 15 recommendations to the Federal Emergency Management Agency (FEMA),
   which, if implemented, should strengthen program management, performance, and
   oversight. FEMA concurred with all 15 recommendations and the Commonwealth of
   Puerto Rico concurred with 12 of the recommendations and partially concurred with
   another. Written comments to the draft report are incorporated as appropriate and are
   included in appendix B.




www.oig.dhs.gov                                  1                                         OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States, and synchronizing preparedness efforts throughout the Nation. Appendix C
   contains a detailed description of the interrelated grant programs that constitute the
   HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency to apply for and administer grant funding awarded under the
   HSGP. The State Administrative Agency is the only entity eligible to apply for HSGP
   funds. The Governor of Puerto Rico designated the Office of Public Safety and Security
   (OPSS) to serve as the State Administrative Agency for the Commonwealth of Puerto
   Rico (the Commonwealth). An organizational chart of the Puerto Rico Homeland
   Security Office is provided as Appendix D.

   OPSS was awarded more than $24 million in HSGP funds during fiscal years (FY) 2009
   through 2011. This included approximately $18 million in State Homeland Security
   Program (SHSP) funds and approximately $6 million in Urban Areas Security Initiative
   (UASI) grant funds.

   Public Law 110-53, Implementing Recommendations of the 9/11 Commission Act of
   2007, as amended, requires DHS OIG to audit individual States and Territories’
   management of SHSP and UASI grants. This report responds to the reporting
   requirement for the Commonwealth. Appendix A contains details on the objectives,
   scope, and methodology of this audit.

   Results of Audit
           The Commonwealth of Puerto Rico’s Grant Management Practices

           In most instances, the Commonwealth distributed and spent SHSP and UASI
           awards in compliance with applicable laws and regulations. However, we
           identified areas in which FEMA and the Commonwealth can improve management
           of SHSP and UASI grant programs:


www.oig.dhs.gov                                2                                        OIG-14-04
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •   Fusion Center operations,
                  •   Review and approval of grant expenditures,
                  •   Homeland Security Strategies,
                  •   Subgrantee monitoring,
                  •   Single Audit services,
                  •   Financial reporting accuracy, and
                  •   Obligation of grant funds to subgrantees.

           These deficiencies existed in the Commonwealth because FEMA and OPSS
           provided insufficient guidance and oversight for grant management.
           Additionally, we identified more than $2 million in questioned costs, primarily
           resulting from unsupported costs, unauthorized equipment purchases, and
           improper use of funds by subgrantees in FYs 2009 through 2011.

           Fusion Center Operations

           The Commonwealth’s Fusion Center does not have adequate management
           controls to ensure prudent and continuous operations in support of the primary
           objectives of a Fusion Center. Specifically, the Fusion Center did not have
           permanent staff dedicated to its operation and support, and the Commonwealth
           did not prepare contingency plans to ensure its continuity of operations.

           Fusion Centers are information sharing centers established with the objective of
           promoting and achieving a wider exchange of information among federal, state,
           and local governments. The main purpose is to gather and analyze information
           to detect, prevent, and respond adequately to threats to the safety of state or
           territory residents, and avoid spreading these threats to the rest of the United
           States. State and major urban area Fusion Centers serve as focal points within
           the state and local environment for the receipt, analysis, gathering, and sharing
           of threat-related information. Fusion Centers are uniquely situated to empower
           front-line personnel to understand local implications of national intelligence,
           thus enabling local officials to protect their communities better. Fusion Centers
           conduct analysis and facilitate information sharing while assisting law
           enforcement and homeland security partners in preventing, protecting against,
           and responding to crime and terrorism.

           The U.S. Department of Justice’s Global Justice Information Sharing Initiative
           Fusion Center guidelines requires fusion centers to have contingency and
           continuity-of-operations plans to ensure sustained execution of mission-critical



www.oig.dhs.gov                                  3                                      OIG-14-04

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           processes and information technology systems during an event that causes these
           systems to fail.

           The Commonwealth did not ensure that its Fusion Center was properly staffed to
           ensure adequate operation and support. In the second quarter of 2012, the
           Fusion Center had an organizational structure that included:

                  •	 An executive committee with officials from various Puerto Rico state
                     agencies (the Emergency Management Agency, the Fire Department, the
                     Homeland Security Office, the Police Department, the Department of
                     Justice, and the National Guard);

                  •	 The director of the Center; and

                  •	 One analyst from OPSS plus seven analysts on temporary deployment
                     from their respective agencies (one from National Guard, one from
                     Forensic Sciences, two from Correctional Department, one from Fire
                     Department, one from the 911 Emergency Service Center, and one from
                     the Emergency Management Agency).

           To facilitate intelligence gathering, the Fusion Center maintained collaborative
           agreements with numerous external agencies, including the Federal Bureau of
           Investigation and State Fusion Centers. Fusion Center analysts were trained on
           topics and disciplines such as Criminal Intelligence Systems Operating Policies,
           Protected Critical Infrastructure Information, and National Incident Management
           System.

           At the time of our audit, the Fusion Center was fully equipped with
           telecommunications equipment and was working towards the ability to connect
           to all municipality police departments. However, the Fusion Center was not fully
           staffed, and therefore was not functional. It was staffed only with one employee,
           the Director of the Fusion Center, who was assigned to work on the premises.
           Other former Fusion Center employees served on a collateral basis, and
           according to information provided by the OPSS Director, in January 2013 were
           removed from duty and returned to their original agencies of employment
           because of the change in government administration.

           The Commonwealth did not prepare contingency plans to ensure its continuity
           of operations. This has hindered its ability to produce a sustainable project on a
           long-term basis, especially during periods when Federal funds are not available,
           and reduced its ability to respond to potential threats. The Commonwealth and

www.oig.dhs.gov                                  4	                                      OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           its stakeholders are currently prevented from obtaining the benefits derived
           from the Fusion Center, including bilingual intelligence bulletins and
           collaborative information sharing that may deter or prevent criminal and
           terrorist acts in the Commonwealth.

           For the most part, the Commonwealth did not provide sufficient attention to the
           operation of the Fusion Center commensurate to its critical mission. Also, the
           Commonwealth had not performed a thorough continuity of operations
           assessment to determine the effect of internal and external factors, such as a
           Federal funding shortfall, on the operations of the Fusion Center. Because the
           Fusion Center is not operational, we are questioning the $501,430 in grant funds
           that the Commonwealth spent on the Fusion Center during FYs 2009 – 2011.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #1:

           Conduct an immediate onsite review of the Fusion Center to ensure it is
           operational.

           Recommendation #2:

           Monitor sustainability of the Fusion Center on a periodic basis.

           Recommendation #3:

           Require OPSS to develop a management plan for operation of the Fusion Center
           that addresses continuity of operations and sustainability without DHS funding.

           Recommendation #4:

           Require OPSS to return to FEMA the full cost of $501,430 if FEMA determines the
           Fusion Center to be non-operational.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendations 1 and 2. FEMA stated that the DHS
           Office of Intelligence and Analysis conducts an annual assessment of the Fusion

www.oig.dhs.gov                                 5                                         OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Center and conducted two visits prior to our audit. The Office of Intelligence and
           Analysis has a full-time Intelligence Officer deployed to the Puerto Rico Fusion
           Center who will provide regular updates on the Fusion Center. The next
           assessment of the Fusion Center was not scheduled to be performed until
           August 2013 and the results will not be available until 90 days after that. The
           actions proposed by FEMA will satisfy the intent of recommendations 1 and 2,
           which are considered resolved and will remain open pending final
           implementation.

           The Commonwealth of Puerto Rico concurred with recommendations 1 and 2.
           The Commonwealth stated that the Fusion Center was not fully staffed because
           of the changes in the government administration in January 2013.

           FEMA concurred with recommendation 3. FEMA stated that it has no legal
           authority to mandate sustainment of the Fusion Center if the funding is no
           longer available, however it will work with the Office of Intelligence and Analysis
           to provide guidance and require OPSS to develop a management plan for the
           Fusion Center. FEMA will require an update from OPSS on progress within
           90 days. The actions proposed by FEMA will satisfy the intent of,
           recommendation 3, which is considered resolved and will remain open until
           management plans have been formalized for the Fusion Center.

           The Commonwealth of Puerto Rico concurred with recommendation 3. The
           Commonwealth has developed a draft of the Concept of Operations that will
           address what the National Security State Information Center will do to achieve
           effective collection, analysis, and dissemination of information related to all
           threats to the island and our nation. The Commonwealth has also developed a
           Business Continuity Plan to address sustainability of the Fusion Center.

           FEMA concurred with recommendation 4. FEMA stated that if the Fusion Center
           is determined to be non-operational and remains unstaffed, and the
           Commonwealth does not use the Center for the intended purpose as supported
           by the Federal programs, FEMA will require the Commonwealth to make
           disposition of any grant-funded equipment and property, and return funds
           recouped through this process. FEMA planned to re-assess the Fusion Center in
           August 2013. FEMA requires an update to these corrective actions within 90
           days. The actions proposed by FEMA will satisfy the intent of the
           recommendation, which is considered resolved and will remain open until such
           time as the corrective actions have been implemented.



www.oig.dhs.gov                                 6                                        OIG-14-04

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           The Commonwealth did not concur with recommendation 4. The
           Commonwealth states that the renovation projects and equipment purchased
           for the Fusion Center were evaluated and approved by FEMA through the
           Environmental and Historic Preservation compliance review. They also stated
           that the past administration may have misinterpreted the approval process and
           it will need to get more clarification from FEMA.

           Review and Approval of Grant Expenditures

           OPSS expended more than $2 million that were not allowed according to the
           grant requirements. This occurred because OPSS did not have an effective
           internal control process in place to review and approve grant expenditures. This
           resulted in:

                  •	 Unsupported Costs - reimbursement of $6,023 to subgrantees for costs
                     that were not properly supported.

                  •	 Unauthorized Equipment Purchases - expenditures totaling $9,669 for
                     equipment that was not included on the DHS Authorized Equipment List.

                  •	 Improper and Unauthorized Use of Funds – expenditures totaling
                     $1,985,452 for equipment that was paid for in full prior to installation in
                     accordance with the purchase contract, and purchases not in keeping
                     with the strategy and investment justifications approved by FEMA.

           The Commonwealth has a centralized procurement process administered and
           controlled by the Puerto Rico General Services Administration, whereby the
           Puerto Rico General Services Administration establishes state-wide procurement
           policies and approves vendors. At the subgrantee level, Puerto Rico General
           Services Administration’s procedures are mirrored in the Autonomous
           Municipalities Act, 1991 of Puerto Rico: Act No. 81 of August 30, 1991, as
           amended (Chapter 10 - Purchase of Equipment, Supplies and Services).
           Subgrantees submit documentation to OPSS for review and approval by the
           Finance Officer prior to disbursement by the Treasury Department. The Finance
           Officer is responsible for reviewing documentation to determine compliance
           with grant terms. As noted in table 1 below, there were several instances when
           the Finance Officer approved expenditures that were unsupported, unauthorized
           by FEMA, or improper according to grant terms.




www.oig.dhs.gov                                    7	                                       OIG-14-04

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Table 1. Classification of Questioned Costs

                                                                             Unauthorized      Improper,
                                                            Unsupported
                      Category/Questioned Cost                                 Equipment     Unauthorized
                                                               Costs
                                                                                Purchase      Use of Funds
            Patrol Cars and/or Executive Transportation Vehicles – Not special�purpose vehicles for the
            transport of Chemical, Biological, Radiological, Nuclear, and Explosives (CBRNE) terrorism
            response equipment and/or personnel to the incident site.
            Location A                                                                            $391,775
            Location B                                                                              $32,450
            Location C                                                                              $71,086
            Fees Related to Telecommunications Services and Construction Materials
            Construction Material for Haiti Relief Effort                          $5,180
            Telecommunications Fees for Services Not
                                                                                 $2,720
            Approved on DHS Authorized Equipment List
            Telecommunications Fees for Services Not
                                                                                 $1,079
            Approved on DHS Authorized Equipment List
            Construction and Renovation Costs Without
                                                                                   $690
            FEMA Approval - Video Surveillance System
            Various – Includes Equipment Not Installed and Expenditures Unrelated to Approved
            Strategy/Investment Justification
            Equipment Related to 2008 Grant                                                      $166,258
            Firefighter Academy Cost - Unrelated to the
                                                                                                 $182,874
            Strategy or Investment Justification
            Equipping Municipal Police HQ with Computer
            Aided Dispatch/Record System that Was Not                                          $1,013,906
            Entirely Installed and Functional
            Bidding Process Fees paid by a sub-grantee.
            Not allowable according to the DHS Authorized                                             $200
            Equipment List
            Ergonomic Chair Not Approved on DHS
                                                                                                    $3,000
            Authorized Equipment List
            Video Surveillance System Installed on Non-
                                                                                                   $75,738
            Critical Infrastructure
            Construction and Renovation Costs Without
                                                                                                   $48,862
            FEMA Approval – Fusion Center
            Inadequate Supporting Documentation
            Inadequate Supporting Documentation for
                                                                 $3,784
            Expenditures – Training
            Inadequate Supporting Documentation for
                                                                 $1,676
            Expenditures – Video Surveillance
            Inadequate Supporting Documentation for
            Expenditures – Notification System and Diving         $563
            Equipment
                                                  Subtotals      $6,023            $9,669      $1,986,149
                                                      Total                                    $2,001,841
           Source: Auditor analysis of Commonwealth provided expenditure data.


www.oig.dhs.gov                                         8                                           OIG-14-04
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The Code of Federal Regulations (CFR) Title 44 § 13.42 Retention and access
           requirements for records, requires all financial and programmatic records,
           supporting documents, statistical records, and other records of grantees or
           subgrantees to be retained for three years from the day the grantee submits its
           final expenditure report.

           The Authorized Equipment List is designed as to assist State, local and tribal
           homeland security communities with equipment purchasing decisions. The
           Authorized Equipment List contains 21 allowable prevention, protection,
           response, and recovery equipment categories, and equipment standards for the
           FY 2009 to FY 2011 Homeland Security Grant Program.

           Unless otherwise stated, equipment must meet all mandatory regulatory and/or
           DHS-adopted standards to be eligible for purchase using these funds. In addition,
           agencies are responsible for obtaining and maintaining all necessary
           certifications and licenses for the requested equipment.

           In general, grantees should consult their FEMA Program Analyst prior to making
           any investment that does not clearly meet the allowable expense criteria
           established by the guidance.

           OPSS did not have written policies for review and approval of expenditures.
           There was no supervisory review or follow-up with subgrantees, which was not
           effective in ensuring that disbursements were properly supported and
           equipment acquired was properly authorized. Unauthorized, improper, or
           unsupported expenditure of Federal grant funds results in the use of funds for
           purposes not intended and hinders the ability of DHS to achieve its goal of
           improved preparedness.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #5:

           Require the Director, Puerto Rico Office for Public Safety and Security, to
           develop policies and procedures for review and approval of grant expenditures
           that include procedures to:



www.oig.dhs.gov                                9                                       OIG-14-04

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                  •	 Obtain approval from FEMA for purchases of equipment not included on
                     the Authorized Equipment List.
                  •	 Ensure expenditures are in accordance with the approved strategy and
                     investment justification.
                  •	 Consult the FEMA Preparedness Officer when there is ambiguity, 

                     uncertainty, or doubt about a potential purchase. 

                  •	 File and maintain supporting documentation for expenditures.

           Recommendation #6:

           Require the Director, Puerto Rico Office for Public Safety and Security, to provide
           to FEMA sufficient support for the questioned costs totaling $2,001,841 related
           to unsupported, unauthorized, or improper grant expenditures, or return the
           funds to FEMA.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendations 5 and 6. FEMA stated that it will require
           the Commonwealth to develop policies and procedures for the review and
           approval of grant expenditures. FEMA also stated that it will conduct an analysis
           of the questioned costs, and upon completion of the analysis initiate steps to
           recover funds for unsupported or unauthorized costs. FEMA will require an
           update to these corrective actions within 90 days of the Commonwealth’s
           notification letter. The actions proposed by FEMA will satisfy the intent of the
           recommendations, which are considered resolved and will remain open until
           such time that corrective actions have been implemented.

           The Commonwealth concurred with recommendation 5 and stated that it is
           working to establish an effective internal control process to review and approve
           grant expenditures. The Commonwealth partially concurred with
           recommendation 6. The Commonwealth noted instances where it has already
           requested reimbursement from subgrantees for unsupported or unauthorized
           costs but also provided a different interpretation of guidance regarding some of
           the expenditures and will seek clarification from FEMA.

           Homeland Security Strategies

           The Commonwealth’s State and UASI strategies did not include objectives that
           were specific, measurable, and time limited. Furthermore, the State strategy
           included dates that were not consistent with the period covered by the strategy,
           and the UASI strategy did not include any goals and objectives.

www.oig.dhs.gov                                10                                 	      OIG-14-04
                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           DHS State and Urban Areas Homeland Security Strategy Guidance on Aligning
           Strategies with the National Preparedness Goal, July 22, 2005, states that an
           objective sets a tangible and measurable target level of performance over time
           against which actual achievement can be compared, including a goal expressed
           as a quantitative standard, value, or rate. To ensure the success of a strategy, the
           State or urban area must guarantee that it has an evaluation plan to monitor
           progress, compile key management information, track trends, and keep the
           strategy on track. The evaluation plan should include a process to review and
           analyze the steps being taken to achieve the goals and objectives of the strategy,
           as well as to determine whether the right elements are being used to measure
           progress.

           According to the guidance, objectives should be:

                  •	 Specific, detailed, and focused - helping to identify what was to be 

                     achieved and accomplished; 

                  •	 Measurable - quantifiable, providing a standard for comparison, and
                     identifying a specific achievable result;
                  •	 Achievable - the objective is not beyond a state, region, jurisdiction, or
                     locality's ability;
                  •	 Results oriented - identifies a specific outcome; and
                  •	 Time-limited - a target date exists to identify when the objective will be
                     achieved.

           The 2009 – 2012 State strategy, which the Commonwealth used to guide its
           program during FYs 2009 through 2011, included 9 broad-based goals and 115
           objectives, but none were time-limited with completion dates. Furthermore,
           although the goals and objectives addressed the four mission areas and eight
           National Priorities, the steps to implement them were not always specific. Nor
           were all of the objectives measurable; that is, they did not provide a standard
           for comparison or identify an achievable result. Table 2 shows examples of
           deficiencies in the 2009 - 2012 State strategy’s objectives.




www.oig.dhs.gov                                   11                                  	     OIG-14-04

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Table 2. Examples of Deficiencies in the State Homeland Security Strategy

            Goal                         Objective                                      Deficiencies
            1. Strengthen CBRNE          Objective 1.7 - Conduct multi-disciplinary,    The objective is not:
            Detection, Response, and     multi-jurisdictional Homeland Security         • Specific
            Decontamination              Exercise and Evaluation Program-               • Measurable
            Capabilities                 compliant exercises to test CBRNE plans,       • Time-limited
                                         protocols, detection and response
                                         procedures.
            2. Protect Critical          Objective 2.1 - Establish governance           The objective is not:
            Infrastructure and Key       structures to guide public and private         • Specific
            Resources                    efforts to protect critical infrastructure     • Measurable
            Implement the National       and soft targets in Puerto Rico by creating    • Time-limited
            Infrastructure Protection    a statewide critical infrastructure advisory
            Plan                         committee and formalizing informal
                                         structures in order to create a Puerto
                                         Rico-wide Critical Infrastructure and Key
                                         Resources strategy.
            3. Strengthen Information Objective 3.1 - Receive, process, and             The objective is not:
            Sharing, Collaboration       disseminate homeland security                  • Specific
            and Intelligence Analysis    information to stakeholders in a timely        • Measurable
            Capabilities                 manner.                                        • Time-limited
           Source: OPSS State Strategy Plan.

           OPSS did not develop internal controls to ensure that requirements for a
           complete and comprehensive strategy were met, including a quality control
           review to identify deficiencies in the strategy prior to submitting to FEMA.
           According to the former OPSS director, OPSS was in the process of developing
           strategic planning procedures; however, constant staff turnover prevented
           completion.

           Without specific, measurable, and time-limited goals and objectives, the
           Commonwealth was limited in its ability to link specific projects to the strategic
           goals and objectives specified in the strategies. Additionally, the Commonwealth
           could not effectively measure progress toward improving its preparedness,
           prevention, response, and recovery capabilities. Ultimately, DHS may not be able
           to properly determine program effectiveness and impact, and may report
           imprecise results to the Congress, Office of Management and Budget, and the
           President.

           In April 2012, FEMA required State and local governments receiving FEMA
           preparedness grants to complete a Threat and Hazard Identification and Risk
           Assessment (THIRA) by December 31, 2012. The THIRA provides a
           comprehensive approach for identifying and assessing risks and associated
           impacts, using the core capabilities identified in the National Preparedness Goal.

www.oig.dhs.gov                                       12                                                OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           In addition to the THIRA, states and territories receiving FEMA preparedness
           grants are required to submit a State Preparedness Report annually. FEMA
           officials state that THIRA results and the State Preparedness Report will provide
           a quantitative summary of preparedness. However, we did not review the THIRA
           process because it was not within the scope of our review. See Appendix F for
           more information about the THIRA.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #7:

           Require that OPSS establish and implement internal controls and written policies
           and procedures for development of its strategies to ensure compliance with
           Federal guidance.

           Recommendation #8:

           Assist OPSS in updating its Homeland Security Strategies to ensure that the
           strategies include goals and objectives that are specific, measurable, and time-
           limited.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendations 7 and 8. FEMA stated that because of
           these recommendations from the OIG, it has established and implemented a
           system that will help states, territories, and urban areas establish measurable
           goals and objectives. FEMA has released guidance that will assist in developing
           target capabilities, determining risks, and building and sustaining capabilities.
           States, territories, and urban areas can now prepare documentation that will
           assist in achieving a SMART strategy. The THIRA, State Preparedness Reports and
           Investment Justification are used as the basis for effective assessments and are
           required by FEMA. The Commonwealth submitted required information for
           FY 2012.

           FEMA implemented procedures that went into effect after the last strategy was
           prepared, and requested that these recommendations be closed. The actions
           taken by FEMA satisfy the intent of the recommendations, which are considered
           resolved and closed.

www.oig.dhs.gov                                13                                       OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           The Commonwealth concurred with recommendations 7 and 8. The
           Commonwealth stated that it will focus on revising each objective to ensure
           compliance.

           Subgrantee Monitoring

           OPSS did not perform on-site subgrantee monitoring of the SHSP and UASI
           grants to ensure subgrantees’ performance was in accordance with program
           goals, and that subgrantees were administering Federal awards in compliance
           with Federal and state requirements. OPSS indicated that it did not have policies
           and procedures governing subgrantee monitoring nor did it have sufficient,
           trained personnel to perform on-site monitoring visits. Although OPSS required
           the submission of financial and programmatic reports from its subgrantees, OPSS
           officials did not perform desk reviews of such information.

           CFR Title 44 §13.40, Monitoring and reporting program performance states that
           grantees are responsible for managing the day-to-day operations of grant and
           subgrant supported activities. Grantees must monitor grant and subgrant
           supported activities to assure compliance with applicable Federal requirements
           and that performance goals are being achieved. Grantee monitoring must cover
           each program, function, or activity.

           Office of Management and Budget Circular A-133, Compliance Supplement, Part
           3-M, March 2008, provides details of the grantee monitoring requirements
           stipulated in the Code of Federal Regulations. Part 3-M states that grantees are
           responsible for monitoring subgrantee use of Federal awards through reporting,
           site visits, regular contact, or other means. Grantee monitoring should provide
           reasonable assurance that the subgrantee administers Federal awards in
           compliance with laws and regulations, as well as the provisions of contracts or
           grant agreements. Monitoring should assure that performance goals are
           achieved.

           We performed on-site visits at 24 of the 41 subgrantee locations and identified
           instances where subgrantees did not fully comply with property record
           requirements resulting in the inability to locate equipment totaling $63,937 as
           shown in table 3:




www.oig.dhs.gov                               14                                         OIG-14-04

                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Table 3. Equipment Unable to be Located 

                   Subgrantee                FY                   Amount              Number of items
                  San Sebastian             2009                   $40,080                 9
                      Lajas                 2009                   $16,555                 5
                     Florida                2009                     $5,225                7
                   Barceloneta              2009                     $2,077                5
                                                   Total           $63,937                26
           Source: Auditor generated from subgrantee provided inventory listing.

           According to the CFR Title 44 § 13.32, property records must be maintained that
           include a description of the property, a serial number or other identification
           number, the source of property, who holds title, the acquisition date, and cost of
           the property, percentage of Federal participation in the cost of the property, the
           location, use and condition of the property, and any ultimate disposition data
           including the date of disposal and sale price of the property. Also, a physical
           inventory of the property must be taken and the results reconciled with the
           property records at least once every two years.

           Property records for 8 of the 24 subgrantees visited did not contain serial or
           other identification numbers, source of property, location, use, and condition of
           the property. OPSS might have identified and resolved these issues through
           better monitoring of subgrantees.

           Subgrantee monitoring weaknesses had been previously reported in Single Audit
           reports for FYs 2009 through 2011; however, the Commonwealth had not made
           progress in addressing this issue. In the Single Audit report for fiscal year end
           June 30, 2011, auditors reported that OPSS did not monitor the use of Federal
           funds for authorized purposes through site visits or other related procedures,
           and did not monitor the use of Federal funds for authorized purposes through
           reporting or other related procedures. Without subgrantee monitoring, OPSS
           had no reasonable assurance as to whether subgrantees were meeting program
           goals and adhering to grant requirements.

           In addition, subgrantees did not spend a significant portion of grant funds
           obligated by the OPSS during FYs 2009 through 2011 as shown in table 4:

           Table 4. Grant Expenditures in Relation to Grant Funding
                                                           Actual Grant
                  Fiscal Year      Total Grant Funding                             Status of Grant
                                                           Expenditures
                    2009                 $9,628,200         $4,123,742             Closed 7/31/12
                    2010                 $9,721,625         $1,860,534                  Open
                    2011                 $5,137,205           $257,181                  Open
           Source: Auditor analysis of Commonwealth provided expenditure data.

www.oig.dhs.gov                                     15                                               OIG-14-04
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Effective and timely subgrantee monitoring by OPSS may have identified this
           slower than average expenditure rate and provided an opportunity for corrective
           action. Effective monitoring will also ensure that OPSS can direct or re-direct the
           funds to other programs that will benefit from the funding as needed.
           Additionally, without on-site monitoring visits, it is difficult to determine
           whether purchased assets will enhance the Commonwealth’s first responder
           capabilities and are being used as intended. As such, OPSS may be hindered in its
           ability to assess future needs of subgrantees and effectively execute and
           properly manage grant fund activities.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #9:

           Require OPSS to develop policies and procedures for subgrantee monitoring that
           include:

                  •	 Monitoring program performance,
                  •	 Ensuring subgrantee compliance with appropriate guidance, including
                     property records,
                  •	 Ensuring proper training for OPSS personnel on subgrantee monitoring,
                     and
                  •	 Scheduling, staffing, and conducting on-site visits as appropriate.

           Recommendation #10:

           Require OPSS to visit subgrantee sites to locate equipment or to return to FEMA
           $63,937 if the equipment cannot be located.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendations 9 and 10. FEMA stated that in 2011 it
           provided Grants Management Technical Assistance to the Commonwealth that
           included templates to assist in drafting subgrantee monitoring procedures.
           FEMA will require use of the materials to draft procedures and visits to
           subgrantees in an effort to locate inventory. FEMA will also initiate the recovery
           of grant funds for any inventory not found. The Commonwealth is required to
           update FEMA with corrective actions within 90 days. The actions proposed by

www.oig.dhs.gov                                 16                                	      OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           FEMA will satisfy the intent of the recommendations, which are considered
           resolved and will remain open until such time that corrective actions have been
           implemented.

           The Commonwealth concurred with recommendations 9 and 10. The
           Commonwealth stated that effective June 2013 it started a subgrantee
           monitoring process beginning with the municipalities of Carolina, Canovanas,
           and Loiza. This monitoring will help identify the location of equipment and
           establish procedures to be used for all municipalities.

           Single Audit Services

           OPSS did not initiate and ensure the timely completion of its Single Audit
           Reporting Packages for FYs 2009 through 2011, as required by the Public Law
           104-156, the Single Audit Act, and Office of Management and Budget Circular
           A-133, Audits of States, Local Governments, and Non-Profit Organizations. It was
           not until 2012 that OPSS contracted with an audit firm to perform all three Single
           Audits simultaneously and submitted the reports to the Federal Audit
           Clearinghouse in December 2012.

           The Single Audit is an organization-wide audit or examination of an entity that
           expends $500,000 or more of Federal assistance received for its operations. The
           results of a Single Audit can be an important management tool if the audited
           entity uses the information provided about its financial and compliance
           performance to implement needed improvements to its operations and internal
           controls.

           FEMA Region II Grants Business Management Team reported the delinquent
           Single Audit Reporting Packages on June 18, 2012, based on the results of a May
           2012 site visit. The letter specified that OPSS had not submitted the data
           collection forms and A-133 reporting packages within the earlier of 30 days after
           receipt of the auditor's report, or 9 months after the end of the period audited.
           FEMA’s observation applied to all grants received by OPSS.

           OPSS did not comply with Single Audit Act requirements because it did not have
           proper policies and procedures in place. According to the former OPSS director,
           staff turnover within OPSS also contributed to the delay in obtaining Single Audit
           services. The former director of OPSS, who resigned in December 2012, took the
           initiative to procure Single Audit services for FYs 2009 through 2011 once
           notified by FEMA Region II that the previous director had not complied with this
           requirement.

www.oig.dhs.gov                                17                                       OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           By delaying its Single Audits for FYs 2009 through 2011, OPSS missed the
           opportunity to benefit from audit findings and implement corrective action to
           improve grant management within a meaningful time period. Noncompliance
           with Single Audit requirements may expose OPSS to disciplinary action by FEMA
           and other Federal grantors, such as withholding of Federal assistance and
           reduction in future grant awards.

           Recommendations

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #11:

           Require that OPSS establish policies and procedures for annual procurement of
           Single Audit services.

           Recommendation #12:

           Require that OPSS implement policies and procedures to ensure timely
           procurement of annual Single Audit services.

           Recommendation #13:

           Ensure that OPSS has complied with Single Audit Act requirements prior to draw-
           down of grant funds.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendations 11, 12, and 13. FEMA stated that it will
           require the Commonwealth to establish policies and procedures for procuring
           Single audit services as well as restrict funds if the services are not procured
           within the specified timeframe. FEMA will also require an update from the
           Commonwealth on the corrective action within 90 days. The actions proposed by
           FEMA will satisfy the intent of the recommendations, which are considered
           resolved and will remain open until such time that corrective actions have been
           implemented.

           The Commonwealth concurred with recommendations 11, 12, and 13. Officials
           stated that they have procured Single Audit services for 2013.


www.oig.dhs.gov                               18                                      OIG-14-04

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Financial Reporting Accuracy


           Amounts included in several Biannual Strategy Implementation Reports (BSIR)
           submitted by OPSS were not accurate and one BSIR was not provided for review
           during the audit as shown in table 5:

           Table 5. Submission of Biannual Strategy Implementation Reports
             Fiscal Year     Subgrantee                           BSIR Reporting
                  2009        Vega Baja      Amount awarded to subgrantee was $59,739 but the June
                                             2009 BSIR did not report an amount obligated.
                  2009         Isabela       Amount awarded to subgrantee was $55,295. Two versions
                                             of obligated and expended amounts for this subgrantee
                                             were presented in the BSIR. In one version the
                                             Commonwealth reported an erroneous amount as
                                             expended. In the other version the Commonwealth did not
                                             report an amount obligated or expended.
                  2010     All Subgrantees   No BSIR provided.

                  2011     All Subgrantees  Amounts awarded, as reported in the June 2012 BSIR, were
                                            amended by the Office of Public Safety and Security due to
                                            a change in distribution to Law Enforcement Terrorism
                                            Prevention activities. A BSIR showing a matching
                                            relationship between amounts obligated and expended was
                                            not provided.
           Source: Auditor generated from Commonwealth provided BSIRs

           CFR Title 44 § 13.20 provides standards for financial management systems.
           These include fiscal control and accounting procedures of the State, sufficient to
           prepare reports required by statutes authorizing the grant, and trace funds to a
           level of expenditures adequate to establish that such funds have not been used
           in violation of applicable statutes.

           The Finance Department within OPSS did not have internal controls in place to
           ensure accurate reporting of grant obligations and expenditures. FEMA’s ability
           to effectively and efficiently monitor the SHSP obligations and expenditures for
           the Commonwealth could be hindered by inaccurate Biannual Strategy
           Implementation Reports. Future awards and funds drawdowns may be withheld
           by FEMA if financial reporting is delinquent, thereby hampering disaster
           preparedness and prevention activities.




www.oig.dhs.gov                                    19                                             OIG-14-04

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #14:

           Require the Finance Department of the Puerto Rico Office for Public Safety and
           Security to establish internal controls to ensure accurate reporting of amounts
           obligated and expended in the Biannual Strategy Implementation Reports in
           accordance with grant guidance.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendation 14. FEMA stated that it will require the
           Commonwealth to establish written internal controls to ensure accurate BSIR
           reporting in accordance with grant guidance. An update will be required from
           the Commonwealth within 90 days. The actions proposed by FEMA will satisfy
           the intent of the recommendation, which is considered resolved and will remain
           open until such time that corrective actions have been implemented.

           The Commonwealth concurred with recommendation 14. The Commonwealth
           stated that it has developed internal control procedures in conjunction with the
           Finance Department and Program Managers to ensure accurate BSIR reporting.
           Additionally, the Commonwealth submitted the 2010 BSIR for review after the
           deadline for submission of information so it could not be considered for audit
           purposes.

           Obligation of Grant Funds to Subgrantees

           OPSS did not obligate funds to subgrantees within 45 days of grant award from
           FEMA, as mandated by law. We noted a reduction in the number of days to
           obligate funds during FY 2011 as compared to FY 2009 and FY 2010, but OPSS did
           not make funds available to subgrantees to expend until as many as 182 days
           after the date that OPSS was required to obligate the funds. Table 6 shows the
           number of days taken to obligate funds to subgrantees:




www.oig.dhs.gov                               20                                       OIG-14-04

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Table 6. Days to Obligate Grant Funds to Subgrantees 

                              Days After Grant Award That Funds           Days in Excess of the 45 day
              Grant Year
                               Were Obligated to Subgrantees          Requirement to Obligate Grant Funds
                  2009                       101                                      56
                  2010                        227                                    182
                  2011                        77                                      32
           Source: Auditor generated from subgrantee notifications.

           Public Law 110–53, Implementing Recommendations of the 9/11 Commission Act
           of 2007, states that not later than 45 days after receiving grant funds, any State
           receiving a SHSP or UASI grant shall make available to local and tribal
           governments, consistent with the applicable State homeland security plan, not
           less than 80 percent of the grant funds, or, with the consent of local and tribal
           governments, items, services, or activities having a value of not less than 80
           percent of the amount of the grant.

           The Commonwealth did not have written internal controls policies and
           procedures, and procedures in place are not effective to ensure that funds are
           obligated to subgrantees within 45 days. Delays in obligating grant funds to
           subgrantees may limit subgrantees’ ability to make purchase decisions regarding
           their most critical needs, thereby hindering preparedness efforts.

           Recommendation

           We recommend that the FEMA Assistant Administrator, Grant Programs
           Directorate:

           Recommendation #15:

           Require the Puerto Rico OPSS to develop and enforce procedures to ensure that
           funds are obligated to subgrantees in accordance with grant guidance.

           Management Comments and Auditor Analysis

           FEMA concurred with recommendation 15. FEMA stated that it will require the
           grantee to establish written internal controls to ensure that funds are obligated
           to subgrantees within the timeframe established in the guidance. FEMA will
           require the grantee to update the progress of the corrective action within 90
           days. The actions proposed by FEMA will satisfy the intent of the
           recommendation, which is considered resolved and will remain open until such
           time that the corrective action has been implemented.
www.oig.dhs.gov                                     21                                              OIG-14-04

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           The Commonwealth did not concur with recommendation 15. The
           Commonwealth submitted information that indicated improvement during
           FY 2012 towards meeting the 45-day timeframe. The auditors forwarded the
           information to FEMA for its consideration as part of the Commonwealth’s
           corrective action plan.




www.oig.dhs.gov                             22                                    OIG-14-04

                                  OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the Commonwealth
   of Puerto Rico distributed and spent SHSP and UASI grant funds (1) effectively and
   efficiently and (2) in compliance with applicable Federal laws and regulations. We also
   addressed the extent to which funds enhanced the Commonwealth’s ability to prevent,
   prepare for, protect against, and respond to natural disasters, acts of terrorism, and
   other manmade disasters.

   The HSGP and its interrelated grant programs fund a range of preparedness activities,
   including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. However, only SHSP and UASI funding,
   equipment, and supporting programs were reviewed for compliance.

   The scope of the audit included the SHSP and UASI grant awards for FYs 2009, 2010, and
   2011. We reviewed the strategies developed by the Commonwealth to improve
   preparedness and respond to all types of hazards, the goals and objectives set within
   those strategies, the measurement of progress toward the goals and objectives, and the
   assessments of performance improvement that result from this activity.

   The scope of the audit included the following grants:

   Table 7. Commonwealth of Puerto Rico’s SHSP and UASI Awards FYs 2009 � 2011
            Grant Type                FY 2009              FY 2010           FY 2011
    State Homeland Security
                                     $ 6,524,500        $ 6,613,200        $ 5,137,205
    Program
    Urban Areas Security
                                     $3,103,700            $3,108,425                  -
    Initiative
                          Total      $ 9,628,200        $ 9,721,625        $ 5,137,205
   Source: FEMA




www.oig.dhs.gov                                    23                                      OIG-14-04
                              OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   The audit methodology included work at the Commonwealth of Puerto Rico Office for
   Public Safety and Security (the State Administrative Agency) and the following:

   Regional subgrantees:

       •   Aguas Buenas                            •   Gurabo
       •   Arecibo                                 •   Lajas
       •   Barceloneta                             •   Lares
       •   Barranquitas                            •   Manati
       •   Bayamon                                 •   Maricao
       •   Caguas                                  •   Naranjito
       •   Canovanas                               •   Orocovis
       •   Cayey                                   •   Ponce
       •   Comerio                                 •   Quebradillas
       •   Florida                                 •   San Juan
       •   Guanica                                 •   San Lorenzo
       •   Guaynabo                                •   San Sebastian

   Puerto Rico subgrantees:

       •   Fusion Center
       •   Puerto Rico Department of Justice
       •   Puerto Rico Emergency and Administrative Agency
       •   Puerto Rico Emergency and Medical Services
       •   Puerto Rico Emergency Management Agency
       •   Puerto Rico Police Department

   We statistically selected 99.41 percent of the disbursements for fiscal years 2009
   through 2011. To review both SHSP and UASI expenditures, OPSS provided the
   subgrantee agreements and supporting documentation for the sample selected. We
   reviewed 100 percent of these documents prior to visiting the subgrantee. At each
   location, we interviewed responsible officials, reviewed documentation supporting State
   and subgrantee management of grant funds, and inspected selected equipment
   procured with grant funds. We also conducted a fraud interview with subgrantee
   officials.




www.oig.dhs.gov                              24                                      OIG-14-04

                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this performance audit between October 2012 and April 2013, pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              25                                      OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                      U.S. Oepar1ment or llomcland Security
                                                                                      W•>hinr,tun. DC Z0472




                                                                                     FEMA

                                                   AUG 1 4 2013

              ME MORANDUM FOR:               Anne L. Richards
                                             Assistant Inspector General for Audits (O IG)
                                             Department o f Homeland Security

              FROM:                    ('    David J. Kaufman      .tj 1-t .
                                       -'!:• ( Associate Administmlor for
                                             Policy, Program Analysis and International Affairs
                                             Federal Emergency Management Agency (FEMA)

              SUBJECT:                       FEMA 's Response OIG-12-173-AUD-FEMA Draft Report
                                             " Puerto Rico's Management of Homeland Security Grant Program
                                             Awards for Fiscal Years 2009 through 20 II ".


              Thank you for the work you and your team did to better inform us through this audit; as well as
              for the opportunity to review and comment on OJG-1 2-1 73-AUD-FEMA Draft Report "Puerto
              Rico's Management of llomeland Security Grant Program Awards for Fiscal Years 2009 through
              2011 " . The draft report contains 15 recommendations, of which FEMA concurs with al l 15
              recommendations. FEMA has provided a consolidated response for recommendations I and 2,
              recommendations 7 and H, and recommendations 13-15.

              OIG Recommendation 1: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate conduct an immediate on-site review of the Fusion Center to ensure it is
              operational.

              FEMA Response to Recommenda tions I: Concur. (See consolidated response below for
              recommendations J and 2)

              OIG Recommendation 2: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate monitor sustainability of the Fusion Center on a periodic basis.

              FEMA Consolidated Response to R ecommendations 1 and 2: Concur. The Department of
              Homeland Security Office of Lntelligcncc and Analysis (I&A) conducts an ann ual assessment of
              Puerto Rico's Fusion Center, including rwo iterations prior to the IG 's visit. DHS I&A is ·
              scheduled to conduct another assessment starting in August20 13, and will advise FEMA if the
              staffing level remains the same as noted in the Inspector General's Report.




                                                                                     \""'"'_femago"




www.oig.dhs.gov                                                 26                                                            OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              In addition to the assessment, I&A has a full-time Intelligence Officer deployed to the Puerto
              Rico Fusion Center, which provides regular updates on their efforts and progress. FEMA will
              update OlG on the status of the Fusion Center within 90 days of the completion of the next
              assessment conducted by I&A.

              FEMA requests that these recommendations be considered resolved and open.

              OIG Recommendation 3: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require Office of Public Safety and Security (OPSS) to develop a
              management plan for operation of the Fusion Center that addresses continuity of operations and
              sustainability without DHS funding.

              FEMA Response to Recommendations 3: Concur. FEMA bas no legal authority to mandate
              sustainment ofthe fusion center if Federal funding is no longer available, however, FEMA will
              work in conjunction with I&A to provide guidance and require OPSS to develop a management
              plan that addresses the continuity of operations and sustainability of the Fusion Center, as well as
              how the center will be staffed during periods of transition. FE!>v1A will require an update from the
              grantee on the progress ofimplementing the corrective action within 90 days of the grantee
              notification letter.

              FEMA requests that this recommendation be considered resolved and open.

              OIG Re.:ommenddion 4: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OPSS to return to FEMA the full cost of$501 ,430 if FEMA
              determines the Fusion Center to be non-operational.

              FEMA Response to Recommendations 4: Concur. To the extent that OPSS spent the
              $501,430 used to equip the Fusion Center on costs that were reasonable, allocable, and allowable
              under the grant program, recovery of the full amount of the grant is not the appropriate remedy
              proscribed by regulation in the event OPSS is no !onger using the Fusion Center for its intended
              purpose. If the Fusion Center is determined to be non-operational and remains unstaffed such
              that the grantee is not using it for the intended purposes supported by federal programs , FEMA
              will require OPSS to make appropriate use of the Fusion Center or to make disposition of any
              grant funded equipment and property as required by 44 C.F.R. §§ 13.31- 13.33.

              In the event OPSS cannot put the center to its appropriate use and makes disposition of grant
              funded property and equipment, FEMA will then require OPSS to return the funds recouped
              through the disposition process as provided for by regulation. FEMA will work jointly with I&A
              in monitoring the staffing of the Fusion Center. FEMA wilt require an update from the grantee
              on the progress of implementing the corrective action within 90 days of the grantee notification
              letter.

              FEMA requests that this recommendation be considered resolved and open.




                                                               2




www.oig.dhs.gov                                               27                                                     OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 5: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the Director, Puerto Rico Office for Public Safety and Security, to
              develop policies and procedures for review and approval of grant expenditures that include
              procedures to:

                         •   Obtain approval from FEMA fbr purchases of equipment not included on the
                             Authorized Equipment List.
                         •   Ensure expenditures are in accordance with the approved strategy and investment
                             justification.
                         •   Consult the FEMA Preparedness Officer when there is ambiguity, uncertainty,
                             or doubt about a potential purchase.
                         •   File and maintain supporting documentation for expenditures.

              FEMA Response to Recommendation 5: Concur. FEMA will require the grantee to develop
              policies and procedures for the review and approval of grant expenditures. The policies and
              procedures shall include provisions for the purchase of equipment not included on the
              Authorized Equipment List, ensure expenditures are in alignment with an approved strategy and
              investment justification, to consult FEMA when necessary with questions prior to purchases, as
              well as maintain files and supporting documentation for expenditures. FEMA "'ill require an
              update from the grantee on the progress ofimplementing the corrective action within 90 days of
              the grantee notification letter.

              FEMA requests that this recommendation be considered resolved and open.

              OIG Recommendation 6: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require the Director, Puerto Rico Office for Public Safety and Security, to
              provide to FEMA sufficient support for the questioned costs totaling $2,00 I ,841 related to
              unsupported, unauthorized, or improper grant expenditures, or return the funds to FEMA.

              FEMA Response to Recommendation 6: Concur. FEMA will conduct an analysis of the
              "Detailed List of Questioned Costs" provided by the OIG. Upon completion of the analysis
              FEMA will initiate steps to recover funds for any unsupported, unauthorized, or undocumented
              costs. FEMA will require an update from the grantee on the progress of implementing the
              corrective action within 90 days of the grantee noti ficalion letter.

              FEMA requests that this recommendation be considered resolved and open.

              OIG Recommendation 7: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require that OPSS establish and implement internal controls and written
              policies and procedures for development of its strategies to ensure compliance with federal
              guidance.

              FEMA Response to Recommendation 7: Concur. (See consolidated re.~punse below
              recommendations 7 and 8)




                                                              3




www.oig.dhs.gov                                              28                                                  OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              OIG Recommendation 8: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate assist OPSS in updating its Homeland Security Strategies to ensure that the
              strategies include goals and objectives that are specific, measurable, and time-limited.

              FEMA Consolidated Response to Ret:ommendations 7 and 8: Concur. The Q[G has
              recommended that FEMA help states, territories and urban areas establish measurable goals and
              objectives that will enable them to systematically measure improvements in first responder
              capabilities and statewide preparedness. FEMA has established and implemented a system to do
              exactly that, as described below.

              FEMA has made substantial progress in the measurement of grant effectiveness. Among other
              changes, the National Preparedness Goal (The Goal) and the National Preparedness System now
              sC!'Ve as the framework for assessing grant effectiveness. FEMA's strategy for developing
              metrics and assessing grant performance begins ~~th the Goal. The Goal defines the core
              capabilities necessary to prepare for the tlueats and hazards that pose the greate~i risk to the
              security of the Nation, and includes concrete, measurable objectives to manage these risks. The
              Goal's capability targets provide concrete statements of the Nation's requirements in each core
              capability.

              Measuring Grant Effectiveness
              As part of the National Preparedness System, FEMA has developed and is implementing
              performance assessments that measure progress toward achieving the Goal. FEMA's strategy is
              to base assessments on the principles that the Nation needs to understand existing risks, use those
              risks to determine required capabilities, assess current capability levels against those
              requirements, and track its progress in closing identified capability gaps.

              In 2012, FEMA released a consistent methodology for determining risks in the Comprehensive
              Preparedness Guide 201: Threat and Hazard Identification and Risk Assessment (I'HJRA) Guide
              (CPG-201).      CPG-201 details a five-step process jurisdictions can usc to achieve desired
              outcomes and capability targets for each of the core capabilities. This approach allows a
              jurisdiction to establish its own capability targets based on the risks it faces.

              On December 31, 20 12, states, territories, and major urban areas receiving Homeland Security
              Grant Program (HSGP) funds were required to submit their THlRAs to FEMA. Once each
              jurisdiction has determined capability targets tluough the THIRA process, it estimates its current
              capability levels against those targets. Also in 2012, states and territories were required to
              submit State Preparedness Reports (SPRs) to FEMA. The THIRA and SPR processes are
              scalable to allow sub-jurisdictions, sub-grantees and subject matter experts to provide input to
              the state or territory. Taken together, the THJRA results and the SPR identify capability needs
              and gaps. The THIRA and SPR results highlight gaps in capability and the progress of grantees
              in closing those gaps over time. FEMA reports the results of the capability assessments annually
              in the National Preparedness Report (NPR).




                                                              4




www.oig.dhs.gov                                               29                                                    OIG-14-04

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              Sustaining, Building and Delivering Capabilities
              Having estimated capability requirements, the next component of the National Preparedness
              System is to build and sustain capabilities. This step ties grant investments directly to needs and
              shortfalls. Grantees address documented capability requirements and gaps in their grant
              applications. In the Investment Justifications (U) submitted in the grant application, grantees
              must specifically identify the core capability or capabilities, the priority of the core capability as
              well as the capability gaps noted in their SPR that investment intends to address. In addition, the
              grantee must identify the specific outcome(s) that the investment will yield. FEMA verifies
              completion of the investment/project through its progranunatic monitoring and spending on the
              investment through the Biannual Strategy Implementation Report (BSIR), also a tool used in the
              monitoring process. Since the period of performance for the Homeland Security Grant Program
              is two years, a lime limit is set for completion of the project once it is funded.

              FEMA addressed the OIG recommendation for States to establish SMART goals and objectives
              that will enable States and Territories to systematically measure improvements in first responder
              capabilities and statewide preparedne~s by requiring states to use a set of tools including the
              THIRA, SPR, and IJs. Strategy updates are encouraged but not required as the THIRA, SPR and
              IJ methodology provide the goals and assessment of progress against those goals.

              FEMA addressed the recommendation for assessment and reporting systems by requiring States
              and Territories to use the THIRA, SPR, and Us as the basis for statewide assessment and
              reporting. Tite methodology and tools for TIDRA and SPR are scalable and available to local
              jurisdictions and sub-grantees.

              PR has submitted its FY 2012 THIRA and SPR. In its FY 2013 Homeland Security Grant
              Program application, PR indicated that it intended to usc grant funding to support citizen
              preparedness initiatives identified in the SPR and to exercise the capabilities outlined in their
              THIRA.

              FEMA believes that use of the THIRA, SPR and IJ satisfies the intent of these recommendations
              and requests that these recommendations be closed.

              OIG Recommendation 9: We recommend that the FEMA Assistant Admini~trator, Grant
              Programs Directorate require OPSS to develop policies and procedures for subgrantee
              monitoring that include:
                        • Morutoring program performance,
                        • Ensuring subgrantee compliance with appropriate guidance, including property
                            records,
                        • Ensuring pmper training for OPSS personnel on subgrantee monitoring, and
                        • Scheduling, staffing, and conducting on-site visits as appropriate.

              FEMA Response to Recommendation 9: C!tJJ£ur. Jn 2011 FEMA provided the grantee with
              on-site Grants Management Technical Assistance (GMTA). As part of the GMTA, the grantee
              was provided with templates to assist in drafting subgrantee monitoring policies and procedures.
              FEMA will require OPSS review materials provided during the GMTA and draft subgrantee



                                                                5




www.oig.dhs.gov                                                30                                                      OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              monitoring procedures accordingly. FEMA will require an update from the grantee on the
              progress of implementing the corrective action within 90 days of the grantee notification letter.

              FEMA requests that this recommendation be considered resolved and open.

              01G Recommendation 10: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require OPSS to visit subgrantee sites to locate equipment or to return to
              FEMA $63,937 if the equipment cannot be located.

              FEMA Response to Recommendation 10: Concur. FEMA will require OPSS to visit
              subgrantees in an effort to locate and inventory equipment purchased with homeland security
              grant funds. FEMA will initiate steps to recover grant funds for any equipment that OPSS is
              unable to locate and properly inventory. FEMA will require an update from the grantee on the
              progress ofimplementing the corrective action within 90 days of the grantee notification letter.

              FEMA requests that this recommendation be considered resolved and open.

              OIG Recommendation 11: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate require that OPSS establish policies and procedures for annual
              procurement of Single Audit services.

              FEMA Response to Reeommendation 11: Concur. (See consolidated response below
              recommendations 11, 12, and 13)

              OIG RecommendationlZ; We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate Require that OPSS implement policies and procedures to ensure timely
              procurement of annual Single Audit services.

              FEMA Response to Recommendation 12: Concur. (See consolidated response below
              recommendations 11, 12, and I 3)

              OIG Recommendation 13: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate Ensure that OPSS has complied with Single Audit Act requirements prior
              to draw~down of grant funds.

              FEMA Consolidate Response to Recommendations 11, 12, and 13: Concur. FEMA will
              require OPSS to establish and implement written policies and procedures for annual procurement
              of Single Audit services. FEMA will restrict access to funds if Single Audit services are not
              procured within the timeframe prescribed in the corrective action. FEMA will require an update
              from the grantee on the progress of implementing the corrective action within 90 days of the
              grantee notification letter. FEMA requests that these recommendations be considered resolved
              and open.

              OIG Recommendation 14: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate Require the Finance Department of the Puerto Rico Office for
              Public Safety and Security to establish internal controls to ensure accurate reporting of amounts


                                                               6




www.oig.dhs.gov                                               31                                                  OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              obligated and expended in the Biannual Strategy Implementation Reports in accordance with
              grant guidance.

              FEMA Response to Recommendation 14: Concur. FEMA will require OPSS to establish
              written internal controls to ensure accurate reporting of obligated and expended amounts in the
              Biannual Strategy Implementation Reports in accordance to grant Guidance. FEMA will require
              an update from the grantee on the progress of implementing the corrective action within 90 days
              of the grantee notification letter.

              FEMA requests that this recommendation be considered resolved and open.

              OIG Recommendation 15: We recommend that the FEMA Assistant Administrator, Grant
              Programs Directorate Require the Puerto Rico OPSS to develop and enforce procedures to
              ensure that funds are obligated to subgrantees in accordance with grant guidance.

              FEMA Response to Recommendation 15: Concur. FEMA will require the OPSS to develop
              written policies and procedures to ensure that funds are obligated to subgrantces mthin the
              timeframe established in the Guidance. FEMA will require an update from the grantee on the
              progress of implementing the corrective action within 90 days of the grantee notification letter.

              FEMA requests that this recommendation be considered resolved and open.

              Thank you again for the opportunity to comment on OJG-12-173-AUD-FEMA Draft Report:
              "Puerto Rico's Management of Homeland Security Grant Program Awards tor Fiscal Years 2009
              through 2011" and for the work that you and your team have done to better inform us throughout
              this audit so that we may enhance the progran1's overall effectiveness. We look forward to your
              final report tor this audit. Please direct any questions regarding this response to FEMA's Chief
              Audit Liaison; Gary McKeon. His number is 202-646-1308.




                                                               7




www.oig.dhs.gov                                               32                                                  OIG-14-04

                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security


                                                                                           See WP          AS5.d



                                              Commonwealth of Puerto Rico
                                                                                                                   #*~ill


                                                                                                                 HOMELAND
                                                                                                                            •




                                          Puerto Rico Homenland Security Office
                                                                                                           Miguel A. Rlos lorres/SAA
      Hon. Alejandro J. Gordo Padilla                                                                        Sally Gc"ofo Echevorrlo
                   Governor                                                                                    Executive D ..oetor




                      July 22, 201 3



                      Jocelyn A. Hill
                      Partner
                      Williams Adley & Company
                      I 030 15'h Street
                      N. W., Suite 350 West
                      Washington, D C 20005

                      Dear Ms. Hill :

                      I would like to thank you for the courtesies extended to us during your last visit to Pueno Rico.
                      Attached you will find our comments on the draft report that Williams, Adley & Company
                      presented of the results of the a uditing of the Homeland Security Grant Program Awards for
                      Fiscal Y ears 2009 through 20 I I.

                      The Puerto Rico Office for Public Safety and Security has the compromise to be in compliance
                      with laws, regulations and federal guidance to assure our abi lity to prevent and respond to a ll
                      hazards of all types. We will be working to improve the grant managements to ensuring the
                      measurement of progress toward the goals and objectives. That will be our main goal.




                      C: Miguel A. Rios-Torres
                          SAA




                                                                                                             Apartado 194140
                                                                                                      San Juan, PR 00919-4140
                                                                                            (787) 763-3424 (787) 763-3447 Fax




www.oig.dhs.gov                                                     33                                                                 OIG-14-04

                                            OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                                                                                ~~~
                                               Commonwealth of Puerto Rico                    HOMELAND
                                           Puerto Rico Homenland Security Office
                                                                                         Miguel A. ~fo' Tornn/ SA.A
      Hon. AleJandro J. Gorcia Padilla                                                     Sally Garrata Echovanfo
                   Governor                                                                  Exec:uHve Dtector




                                         PUERTO RICO'S MANAGEMENT OF
                                             HOMELAND SECURITY
                                            GRANT PROGRAM AWARDS



                                           FOR FISCAL YEARS 2009-2011

                                    DRAFT REPORT COMMENTS JULY 2013




                                                                                            Apartado 194140
                                                                                     San Juan, PR 00919-4140
                                                                            (787) 763-3424 (787) 763-3447 Fax




www.oig.dhs.gov                                             34                                                        OIG-14-04

                                             OFFICE OF INSPECTOR GENERAL
                                                    Department of Homeland Security




                                                                                 #*~
                                                                                HOMELAND




                  Table of Contents


                  Results of Audit

                         Fusion Center Operation Comments ... .. .............. .. ................... .. ... 4

                         Fusion Center unauthorized funds .. . ......... .. ..... . ... ...... ... . ... .. ... . ... . .. 4

                        Review Grant Expenditures . . ....... .. ....... ........ .. ....... . ........ . ............ 5

                        Questioned Cost. ....... . ........ . .. .. ....... ... ...... . ....... .. ..................... .5-8

                         Homeland Security Strdtegies .. .. ........ . .......... ... ........ .. ...... ........ ...8

                         Subgrantee Monitoring ....... . ... . .... . ... ... .. .. ... .. . .... . ........ . ... . .... . .. . . .8

                         Single audit. . ........ ... .. ........ . ... . ........ . ... ... ..... .. ....... . .... , ... . ....... . 9

                         Financial Reporting (BSIR) .. .. . ....... ................. . ............ . .... . ... . ..... 9

                         Obligate funds to subgrantees ...... .. ......... .. .... . . ...... ....................... 9

                         Appendix (attached via e-mail)




                                                                                                                                                PO Box 194140
                                                                                                                                      San Juan, PR 00919-4140
                                                                                                                       (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                                                   35                                                                      OIG-14-04

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              4

                                                              #*~
                                                             HOMELAND




              FUSION CENTER OPERATION COMMENTS:

              At the time of the audit, the Fusion Center was not fully staffed, because of the change in
              Government administration in January 20 13. In fact, we arc in the process that the Center will
              be managed under The Department of Justice by our supervision. In the week of July 22-26,
              Hon. Alej andro Garcia-Padilla, Governor will be sign the Executive Order to establish this
              requirement.

              We have develop a dra ft of the Concept of Operations (CONOPS) that will address what the
              National Security State Information Center (NSS IC) will do to achieve an effective collection,
              analysis and dissemination of infom1ation related directly or indirectl y to all threats to the island
              and our Nation. ln addition, we developed a draft of Business Continuity Plan to address that
              gap. Once the Fusion Center Executive Order (EO) is signed, we will be hiring the company that
              will be developing the Continuity of Operation Plan. In addition, the EO establishes that the
              P uerto Rico Commonwealth has to support the Fusion Center operations and sustainability
              including the State contribution.

              In January 2013 , DHS assigned to our Fusion Center Mr. Kory Edwards to support us in all
              things we can do to make the center fully operational and compliance with the guidance. The
              OPSS with M.r. Edwards conducted the analyst interviews to choose the new staff tor the Center.
              Once personnel have been approved by the Department of Justice we will be coordinating the
              trainings fort these personnel either in Puerto Rico or in the mainland depending upon
              availability. As the ;-JSSlC begins to produce valuable products, other Federal agencies will
              work closely w ith the center and at some point assign personnel to work there. In the meantime,
              they have all pledged their remote support.

              The NSS IC is aligned with other State Fusion Centers nation-wide. Mr. Edwards through the
              Center support several uf them, in give information that they request to us about criminal
              activities, among others.


              UNAUTHOIUZED USE OF FUNDS:

                  I. As mentioned in page #7 in the table of the questioned cost of $48,862.00 fo r
                     construction and renovation for the Fusion Center, we still have doubt about this fmding.

                     As mentioned in the application kit, the Grantees must comply with all applicable EHP
                     laws. Any proj ects that involve ground disturbing activities, new construction, including
                     modification, renovation of existing buildings or structures must be under FEMA EHP
                     review. These renovations projects was evaluated and approved by fEMA through the
                                                                                                             PO Box 194140
                                                                                                   San Juan, PR 00919·4140
                                                                                         (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                                36                                                      OIG-14-04

                                      OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                       EHP submitted. Ln addition, the approval letter mentioned that the State may authorize
                       the identified jurisdiction to proceed with the procurement and implementation of the
                       project. Also, I think the past administration thought that if the EHP was approved the
                       Office can execute the project without any problems.

                       We. net:d dari fy   thi ~   issue to be in wmpliam;e and avoid in the future additional findi ngs.



                  REVIEW AND APPROVAL GRANT EXPENDITURES:

                     The OPSS is working to establish an effective internal control process               to   review and
                     approve the grants expenditures.

                      Actually, we are imp lementing internal controls and supervise the disbursements were
                      properly supported and the equipment acquired by the subgrantees was properly
                      authorized in the Authorized Equipment List (AEL). I contracted a new fi nance otlicer that
                      helps us in develop written policies to assure the reimbursement to subgrantees following
                      the financial and programmatic guidance, in addition of the Code of Federal Regulations
                      (CFR).

                      Furthermore, we develop an Operational Policies and Procedures Manual , which is w1der
                      final revision lo r approval and execution.



                  QUESTIONED COSTS:

                      Table I.

                      1. PATROLCA RS:
                         The OPSS authorized the acquisition of the purchase of vehicles fo r the municipalities
                         based on the investment justification# 9, submitted to DHS. The characteristics ofthe
                         vehid e wert:. selected taking into consideration the different emergencies that the fi rst
                         responders attend daily, in addition to the topography of Puerto Rico. The Authorized
                         Equipment List doesn't specify how should be the vehicle. The Office use the
                         reference number: 12YE-OO-SPEC with the following description: Spedalized
                         vehicles for emergency management operations. This category includes special-
                         purpose vehides to transport of response equipment and personnel to incident sites
                         which may have limited or restricted access as a result of an emergency or disaster.
                                                                                                                     PO Box 194140
                                                                                                          San Juan, PR 00919-4140
                                                                                               (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                                      37                                                        OIG-14-04

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




              6

                                                         #*~
                                                        HOMELAND




                    Puerto Rico as a tropical Island has exposed every day to emergencies related to acts of
                    God such as hurricanes, the recently events of noods (photo allached), search and
                    rescue incidents in inaccessible places, among others.

                    In addition, many companies carry flammable liquids such oil, gasoline and others,
                    which can cause a major emergency if an accident happens and the emergency cannot
                    address immediately. Our first responders are the first in arrive in an emergency
                    involving several of the above situations including a WMD and CBRNE events; they
                    need a rapid response unit to help respond any emergency and transport equipment and
                    people from one place to another. The emergency management responders have
                    knowledge and panicipated in HAZMA T trainings, and they are the first to be exposed
                    to a toxicity level, they can analyze the risk and establish the perimeter area wllil the
                    Agencies in charge arrive to the scene.


                  2. FEES RELATED TO TELECOMMUN ICATIONS S ERVICES: ($3 ,800.00)

                     Regarding the telecommunications services fee reimbursement for Municipalities of
                     San Lorenzo and Barceloneta, the oftl ce uses the OMB #87 as reference. This circular
                     provides policy interpretations and assistance for cost to insure effective and efficient
                     implementation.
                     In 20 I 0, our programmatic staff takes the Basic Fundamental Grant Management
                     Technical Assistance in San Juan, P.R. In this training Mrs. Lisa Nine Accordini ,
                     indicated that we can use the OMB circulars as standards to determining cost for
                     federal award carried out through grants, cost reimbursement, contracts and other
                     agreements. ln this case, we use the OMB as a reference, because in the Authorize
                     Equipment List (AEL) in RKB only 21 categories are posted and do not includes
                     services only equipment. In page number 16 in the communications item, mention that
                     the cost of telephone, mail, messenger and similar communication services are
                     allowable.

                  3. Construction Materials for Haiti Relief Effort s for the amount of $5,180.00, we are
                     totally agree that this cost is not allowable. As mentioned before, we are established
                     new policies for review and approvals of expenditures to avoid this situation.

                  4. Construction and renovation cost !Video Surveillance system and ergonomic chair our
                     office request to the Municipality of Comerio returns the amount of $3,690.00
                     regarding this unauthorized equipment pmchase. (Check anached)


                                                                                                        PO Box 194140
                                                                                              San Juan, PR 00919-4140
                                                                                    (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                           38                                                      OIG-14-04

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  7

                                                                 #*~
                                                               HOMELAND




                      5.   Equipment related to 2008 grants I amount $ 166,258.00

                           This reimbursement is part of the continuity project of the Puerto Rico Police
                           D epartment fo r the Bomb squad, through the UASl funds. The offi ce paid the
                           reimbursement through the FY 20 10 grant, using the Bulletin number 379, sho uld
                           mention that the grantees will has additional nex ibility to acce lerate the spe nding of
                           their remaining FY 2007-2011 DHS funds consistent with the p rogrammatic
                           objectives. The acquisition equipment and trainings are a continuity proj ect for the
                           PRPD compliance with the National Priorities of the Strengthen Chem ical, Biological,
                           Radiological/Nuclear and Explosive detection response . T he project is under the UASI
                           Investment Justifi cation (IJ).

                      6. rirefighter Academy cost/amount $ 182,874 .00

                           I verify the Investments j ustifications number I 0 and do not includes the Firefi ghter
                           traini ng. I can only attach this cow·se to the Puerto Rico Strategic 2009-20 12, Goal
                           number 8.

                           Expand Regional Collaboration by effective coordination o f train ing and exercises to
                           allow the possi bi lity o f having greater impact on more people with less funding. This
                           strategy prioritizes regional tra ining and exercise needs and enco urages greater
                           collaboration. The South Region the last year broke the record of forest fi re . The
                           region has only two or three Municipal Firefighter Stations, which difficult the rapid
                           response in mitigate this natural or man-made hazard.

                           This p lan was approved for our last Planner and Past Director. We request your
                           consideration on this fi nding, because is a good proj ect to attend this emergencies, a lso
                           this first responder will be acti vale for the state in a mayor disaster.

                      7. Region Metro 1- Computer A id Dispatch System (CAD) amount of $ 1,0 13.906

                           We are to ta.lly agreed w ith th is fi nding, we will assure this not happened again. On
                           March, 15 201 3, I had a meeting with the San Juan E mergency Management Director,
                           Mr. Nazario Lugo Burgos and explained the sin1ation. A t this moment, the Metro I
                           Region indicated that the CAD system was installed, they are in the process to
                           coord inate a meeting with the supplier to establish the trainings and the parameters to
                           start the operation o f the system.

                           We req uest your consideration on this finding.


                                                                                                                 PO Box 194140
                                                                                                      San J uan, PR 00919-4140
                                                                                            (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                                  39                                                        OIG-14-04

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




                                                             ,#*~
                                                            HOMELAND



                      8. Bidding process- Amount $200

                         The OPSS understand that this cost is allowable because the municipalities need to
                         have their own procurement process for the acquisition equipment and it will be
                         including as part of the funds.

                      9. Inadequate supporting documents for:
                            a. Department of Justice/ amount $3 ,784.00
                                TI1e s ub-grantees returned the amount of $656.79, for the travel expenses that
                                they don't usc
                                     i. The different of $3 ,784.49 was an error that the financial division made
                                        in the:: chart of the:: FY 2010 obligatc::d and expended <~mount.
                                    ii. This reimbursement should be reflected in the M&A allocation

                             b. Municipalities of Adjuntas and Guanical amoun t of$2,239
                                   1. As we requested to the Municipality of Comerio, we will be sending a
                                      communication to the Municipalities, to return the amount the OPSS
                                      paid in excessive


                  HOM ELAND SECURITY STR.A TEGY:

                       Regarding this find ing, we have to work hard with your recommendations to be
                       compl iance in th is matter. We will be focus in revise each one, step by step to achieved
                       and accomplished the goals and objectives of each strategy, as well to determine the
                       measure progress.

                  SUBGRANTEE MONITORING:

                       We are agreeing with this finding. On June 20, we start to monitor the differe nt
                       subgrantess. We cboo~c:: the municipality of Carolina, Canovanas and Loiza for our fi rst
                       on-site visits.

                       O ur Finance Officer and our Property Manager was in charge of it. This first monitoring
                       hel ps us to improve the process and identify where the subgrantees did not fully comply
                       with the record requirement that help us in create a standard procedures to improve this
                       and be compliance with the federal guidance. This is part of my commitment. (attached
                       sample)



                                                                                                           PO Box 194140
                                                                                                 San Juan, PR 00919-4140
                                                                                       (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                               40                                                     OIG-14-04

                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




              9




                  SfNGLE AUD IT:

                         For the single audit ends in June 2013 , we signed the contract wi th the Audit Firm, to
                         initiate and ensure the timely completion of this Single Audit reporting.


                  Biannual Strategy Implementation Reports (BSlR):

                         Enclosed you will find the FY 2010 BISR for your evaluation. We started an internal
                         control with the Financial Department and the Program Managers to comply with this
                         requirement on time and with the real amount o f the fund s expended.

                         Regarding FY 2011 Law Enforcement funds, we will be sending letters to the subgrantess
                         to pass through this balance and will be fix the BS1R with the correct amount. This
                         change will be reflected for the next BSIR report on January 2014.

                  Obligation of Grant funds to subgrantcs:

                         The last year as Pla~mer Officer, I sent the letter for the FY 2012 funds, to the
                         subgrantccs in the 45 days period, as mandated by law. Actually the funds arc obligated
                         and reflected in the BSIR report.


                                                                    ###




                                                                                                             PO Box 194140
                                                                                                  San J uan, PR 00919-4140
                                                                                        (787)763-3424 (787)763-3447 Fax




www.oig.dhs.gov                                                41                                                      OIG-14-04

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Description of the Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with the SHSP. Funding is expended based on the
      Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (beginning FY 2010)




www.oig.dhs.gov                               42                                	      OIG-14-04

                     OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


   Appendix D
   Puerto Rico Homeland Security Office Organizational Chart




www.oig.dhs.gov                    43                          OIG-14-04

                                   OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix E
   Potential Monetary Benefits
                                         Classification of Monetary Benefits
                                                   Funds To    Questioned
                                         Rec.      Be Put to     Costs –     Questioned
              Finding                                                                        Total
                                          No.        Better   Unsupported Costs – Other
                                                      Use         Costs

    Patrol cars and/or
    executive transportation              6                                  $495,311      $495,311
    vehicles

    Fees related to
    telecommunications
                                          6                                     $9,669       $9,669
    services and construction
    materials

    Various, including
    equipment not installed
    and expenditures
                                          6                                 $1,490,838    $1,490,838
    unrelated to the approved
    strategy and investment
    justification

    Inadequate supporting
    documentation for                     6                      $6,023                      $6,023
    claimed expenditures

    Total                                                        $6,023     $1,995,818    $2,001,841
   Source: Auditor analysis of data. 





www.oig.dhs.gov                                        44                                       OIG-14-04

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix F
   Threat and Hazard Identification and Risk Assessment
   The National Preparedness System establishes the process to define and achieve specific
   capability targets and meet the National Preparedness Goal. One of the six components
   of the National Preparedness System includes identifying and assessing risk. The Threat
   and Hazard Identification and Risk Assessment (THIRA) provides a comprehensive
   approach for identifying and assessing risks and associated impacts, using the core
   capabilities identified in the National Preparedness Goal and employing the following
   five-step process:

       1.	 Identify threats and hazards;
       2.	 Give threats and hazards context (assess vulnerability, how they affect the community);
       3.	 Examine core capabilities using the threats and hazards (estimate consequences,
           impacts to the community);
       4.	 Set capability targets; and
       5.	 Apply the results (use results for planning and preparedness activities, identify means to
           deliver target level of capability).

   THIRA submission is required of all 56 States and territories receiving HSGP and
   Emergency Management Performance Grant funds and 31 eligible UASIs. The first THIRA
   submission was due December 31, 2012. Subsequent submissions will be an annual
   performance requirement for FEMA preparedness grant awards.

   In addition to the THIRA, States and territories receiving FEMA preparedness grants are
   required to annually submit a State Preparedness Report. FEMA officials state that
   THIRA results and the State Preparedness Report will provide a quantitative summary of
   preparedness, document current capabilities and potential shortfalls, and set priorities
   for addressing shortfalls. FEMA officials also state that the State Preparedness Report
   results will be used by the States to identify funding requirements and set priorities for
   subgrantee project applications. The grant application (investment justification) must
   demonstrate how proposed projects address gaps and deficiencies in delivering one or
   more core capabilities outlined in the National Preparedness Goal, and as FEMA officials
   state, address capability gaps reported in the State Preparedness Report.

   FEMA officials said that the FY 2013 Homeland Security Grant Program funding
   announcement will require applicants to map proposed investments to specific core
   capabilities and capability gaps identified in the State Preparedness Reports, linking
   investments to actions that build and sustain capabilities aligned with the National
   Preparedness Goal. We have not had the opportunity to audit this process or the
   outcomes for this State.
www.oig.dhs.gov                                   45                                    	       OIG-14-04

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  46                        OIG-14-04

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
